U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                         The Drug Enforcement
                      Administration’s Adjudication
                          of Registrant Actions
                                       May 2014




                                      I-2014-003 

                              EXECUTIVE SUMMARY 



INTRODUCTION

       The Drug Enforcement Administration (DEA) administers a
provision of the Controlled Substances Act of 1970 requiring registration
with the DEA by businesses that import, export, manufacture, or
distribute controlled substances; health care practitioners entitled to
dispense, administer, or prescribe controlled pharmaceuticals; and
pharmacies entitled to fill prescriptions. If the DEA finds a registrant or
applicant has violated the Controlled Substances Act, it may issue an
order to show cause why registration should not be revoked, suspended,
or denied. If the violation poses an imminent threat to public health or
safety, the DEA may issue an immediate suspension order, which
deprives the registrant of the right to deal in controlled substances
immediately.1 Orders to show cause and immediate suspension orders
are collectively known as “registrant actions.”

       After receiving notice of a registrant action, the registrant may either
allow the DEA Administrator (the Administrator) to issue a final decision
or request a hearing through the DEA’s Office of Administrative Law
Judges. If the registrant requests a hearing, an Administrative Law Judge
(ALJ) will issue a recommended decision to the Administrator. The
Administrator then issues a final decision by adopting, modifying, or
rejecting the ALJ’s recommended decision. The Office of the Inspector
General (OIG) examined the adjudicative process followed by the DEA, the
timeliness of that adjudicative process between 2008 and 2012, and the
impact of any delays on registrants, the public, and on the DEA itself.

RESULTS IN BRIEF

       From 2008 through 2012, we found that the adjudicative process
followed by the DEA was in compliance with the requirements of
21 U.S.C. § 824 and the DEA’s regulations.2 However, we found that the
time it took the DEA to reach a final adjudication of registrant actions
was very lengthy. Neither federal law nor the DEA’s regulations establish
timeliness standards, and we found that the DEA generally does not have
timeliness standards in place. The only exception is for registrant
actions involving immediate suspension orders, where the DEA
established a 180-day goal for itself. The DEA told us that this timeline

       1   21 U.S.C. §§ 823 and 824.

       2   We did not assess the substantive basis for the DEA’s decisions.


U.S. Department of Justice                                                    i
Office of the Inspector General
Evaluation and Inspections Division
was put in place in 2006 chiefly in response to a preliminary injunction
issued by a U.S. District Court after finding the DEA violated the due
process clause by not providing a timely hearing for a registrant who had
received an immediate suspension order. However, we found that from
2008 to 2012 the DEA has consistently failed to meet this timeliness
standard.

       The DEA is failing to meet its timeliness standards for
immediate suspension orders and adjudications take, on average,
over a year. The DEA has significantly failed to meet its 180-day
timeliness standard for adjudicating immediate suspension orders. The
average time for these adjudications ranged from 647 days in 2008 to
459 days in 2012, substantially above the 180-day goal set in a 2006
DEA memorandum.3 Indeed, we found that, from 2008 to 2012, the
Office of the Administrator alone took an average of 203 days to issue a
final decision after receiving an ALJ’s recommended decision. We further
found that the Office of the Administrator took, on average, more than
180 days to issue a final decision in 4 of the 5 years we reviewed.

      For all registrant actions (involving both orders to show cause and
immediate suspension orders), we found that the average number of days
the DEA took to make a final decision ranged from a high of 730 days in
2009 to 366 days in 2012. In those cases where the Administrator was
the sole adjudicator, the average adjudication time ranged from 303 days
in 2008 to 281 days in 2012. While we found that the overall time it
takes the DEA to adjudicate registrant actions continues to be very
lengthy, the timeliness of the adjudication process nevertheless comports
with the applicable laws and regulations, which do not include specific
timeliness standards.

       Delays in the adjudication process can adversely affect the
public, registrants, and the DEA itself. We found that unreasonable
delays in the adjudication of registrant actions can have harmful effects
on the general public, registrants, and the DEA. Such delays can create
risks to public health and safety by allowing noncompliant registrants to
operate their business or practice while the registrant action is being
adjudicated. For registrants, inappropriate delays can seriously impact
their livelihood, career, and ability to conduct business. For the DEA,
the failure to timely adjudicate actions against noncompliant registrants

        3 The averages were increased by cases in which testimony was provided during

proceedings that lasted several years. During administrative proceedings, ALJs have
discretion to set deadlines and grant extensions. In one case that lasted over 4 years,
the ALJ granted 19 separate requests for an extension by the registrant. We further
discuss how ALJs vary in conducting proceedings below.


U.S. Department of Justice                                                            ii
Office of the Inspector General
Evaluation and Inspections Division
can impact its mission, slow development of legal precedent, and affect
employee morale.

       A number of factors may be affecting the timeliness of final
decisions. We identified several factors that may be contributing to the
length of the DEA’s adjudication proceedings. First, the DEA told us that
it has devoted more resources to prevent the diversion of prescription
drugs for illegitimate purposes, which has led to an increase in the
number of registrant actions initiated and a larger adjudicative workload.
We also were told by DEA employees that delays resulted from variations
between ALJs in how they prefer to manage their caseloads. We further
found that timeliness was affected by a lack of guidance about the
timeline that DEA attorneys must adhere to when preparing and
submitting case summaries and related materials to the Office of the
Administrator for adjudications made solely by the Administrator.
Finally, we also found that the DEA cannot effectively determine the time
it takes to adjudicate each registrant action through final decision.

       The DEA has recently taken actions that may improve
timeliness. We found that DEA management has recently undertaken
efforts to improve timeliness and to facilitate the adjudication of
registrant actions. First, from 2008 through 2012, the DEA increased
staff in both its Office of Administrative Law Judges and Diversion
Litigation Section, which represents the government in registrant actions.
Second, the Chief ALJ of the Office of Administrative Law Judges
instituted internal policies and training to help ensure the timely
processing of registrant actions. Third, the Diversion Litigation Section
Chiefs directed attorneys in the section to limit their requests for
continuances during the hearing process. Fourth, to improve the
hearing process and achieve long-term cost savings, the Office of
Administrative Law Judges are now using court rooms equipped with
video teleconferencing capabilities. Fifth, the Administrator delegated
authority to the Deputy Administrator to review registrant actions and
issue final decisions. In addition, the DEA is testing and implementing a
new case management system that it hopes will improve case tracking.

RECOMMENDATIONS

       In this report, we make three recommendations to improve the
DEA’s ability to effectively and efficiently adjudicate all registrant actions
in a timely manner and mitigate the potential adverse effects of delays on
the DEA, registrants, and the public.




U.S. Department of Justice                                                  iii
Office of the Inspector General
Evaluation and Inspections Division
                                   TABLE OF CONTENTS 



BACKGROUND.................................................................................... 1
 

    Introduction ................................................................................... 1
 

    Retail and Wholesale Registrants .................................................... 1
 

    The DEA’s Adjudication Process for Registrant Actions ................... 2
 

    Number of Cases Adjudicated by the DEA Between 2008 

    and 2012 ........................................................................................ 6
 

    Federal Laws and Regulations, and DEA Policy, Related to the 

    Adjudication of Registrant Actions .................................................. 6
 

RESULTS OF THE REVIEW ................................................................. 8
 

    The DEA does not have timeliness standards for most of its 

    registrant actions and is not meeting its timeliness standards 

    for the one area where it does have them. ....................................... 8
 

    Delays in the adjudication process adversely affect the DEA, 

    registrants, and public.................................................................. 18
 

    Enforcement operations and administrative procedures can 

    affect the timeliness of issuing final decisions. .............................. 20
 

    Recent actions taken by the DEA may improve the timeliness of 

    the adjudication process. .............................................................. 29
 

CONCLUSION AND RECOMMENDATIONS ........................................ 34
 

APPENDIX I: SCOPE AND METHODOLOGY OF THE OIG REVIEW ... 36
 

APPENDIX II: THE DEA’S RESPONSE TO THE DRAFT REPORT........ 39
 

APPENDIX III: OIG ANALYSIS OF THE DEA’S RESPONSE ................ 43
 




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                    BACKGROUND 



Introduction

        The Drug Enforcement Administration (DEA) administers a
provision of the Controlled Substances Act of 1970 that requires all
businesses that import, export, manufacture, or distribute controlled
substances; all health care practitioners entitled to dispense, administer,
or prescribe controlled pharmaceuticals; and all pharmacies entitled to
fill prescriptions to register with the DEA.4 If the DEA finds a registrant
has violated the Controlled Substances Act, it may issue an order to
show cause why the DEA should not revoke, suspend, or deny a
registration. If the violation appears to pose an imminent threat to the
public health, the DEA may issue an immediate suspension order, which
deprives the registrant of the right to deal in controlled substances
immediately.5 Orders to show cause and immediate suspension orders
are collectively known as “registrant actions.”

      The Office of the Inspector General (OIG) examined the DEA’s
process for issuing final decisions on registrant actions, the timeliness of
the process, and the impact of any delays on registrants, the public, and
on the DEA itself.6

      In this background section, we describe the types of registrants
required to register with the DEA, the process by which the DEA
adjudicates registrant actions, the number of cases adjudicated by the
DEA between 2008 and 2012, and the federal laws and regulations and
DEA policy governing the process.

Retail and Wholesale Registrants

     As of March 2014, the DEA had 1.5 million active retail and
wholesale registrants, as shown in Table 1.




       4   21 U.S.C. § 801 et seq. and 21 C.F.R. § 1300 et seq.


       5   21 U.S.C. §§ 823 and 824.


       6A detailed description of the methodology and analyses for our review is in 

Appendix I.


U.S. Department of Justice                                                              1
Office of the Inspector General
Evaluation and Inspections Division
           Table 1: Retail and Wholesale Registrants, March 2014
            Retail Registrants                          Wholesale Registrants
Retail Pharmacy                     69,541   Manufacturer                              537
Hospital/Clinic                     15,992   Distributor                               934
Practitioner*                    1,172,824   Researcher                               9,915
Teaching Institute                     311   Analytical Lab                           1,509
Mid-Level Practitioner**           243,684   Importer                                  231
Total Retail Registrants         1,502,352   Exporter                                  242
                                             Reverse Distributor                        61
                                             Narcotic Treatment Program               1,360
                                             Total Wholesale Registrants            14,789
Total Registrants                                                                 1,517,141

* Practitioners include physicians, dentists, and veterinarians. 

** Mid-level practitioners include nurse practitioners, nurse midwives, nurse 

anesthetists, clinical nurse specialists, and physician assistants. 

Source: DEA Office of Diversion Control. 


     Retail registrants, such as pharmacies, hospitals, and doctors, must
renew their registrations every 3 years. Wholesale registrants, such as
manufacturers, distributors, and researchers, must renew every year.

The DEA’s Adjudication Process for Registrant Actions

       The Controlled Substances Act of 1970 authorizes the DEA to deny,
suspend, or revoke a DEA registration upon a finding that the registrant
has materially falsified any registration application filed; been convicted
of a felony relating to a controlled substance or a chemical important to
the manufacture of a controlled substance; had its state license or
registration suspended, revoked, or denied; committed an act which
would render the registration inconsistent with the public interest; or
been excluded from participation in a Medicaid or Medicare program.7
To suspend or revoke a registration, the DEA first serves on the
registrant an order to show cause or an immediate suspension order that
sets a time and place for a hearing regarding the proposed revocation of a
registration. The hearing takes place only if the registrant files a formal
request within 30 days of being served with an order to show cause or an
immediate suspension order.8 A registrant who does not file a request

       7   21 U.S.C. § 824(a).

       821 C.F.R. § 1301.43(a) specifies a 30-day deadline. However, the registrant
may request an extension.


U.S. Department of Justice                                                               2
Office of the Inspector General
Evaluation and Inspections Division
for a hearing by the deadline is deemed to have waived the opportunity
for a hearing, and the case is forwarded to the Administrator for a final
decision.9

       If the registrant files a request for a hearing, the Office of
Administrative Law Judges assigns an ALJ to oversee the matter. The
ALJ has the authority to determine in part how quickly cases proceed
through the hearing process by setting or extending deadlines.10 The
ALJ issues an order requiring first the DEA and then the registrant to file
prehearing statements identifying the issues they intend to litigate in the
hearing and the documents and witnesses they plan to introduce.11 The
registrant is entitled to hire an attorney to represent it.12 The DEA is
represented by an attorney from the Diversion and Regulatory Litigation
Section (Diversion Litigation Section) in the Office of Chief Counsel.
Once the statements are filed, the ALJ conducts a prehearing conference
to discuss the possibility of settlement and set a hearing date.13 Parties
may request extensions of deadlines for good cause, and it is within the
ALJ’s discretion to decide whether to grant those requests. The hearing
is held either in person or through video teleconferencing.14 The ALJ
sets a deadline by which both parties may file post-hearing briefs
containing proposed findings of fact and conclusions of law.15

       As soon as practicable after the deadline for filing post-hearing
briefs, the ALJ issues a recommended decision.16 Both the registrant
and the DEA may file exceptions to the ALJ’s opinion if they believe any

       9    21 C.F.R. § 1315.56(e).

      10 For example, 21 C.F.R. §§ 1316.54-55, 1316.58, and 1316.64-66 each grant

an ALJ some discretion in determining or extending the deadlines for the parties to
submit documents.

       11  Alternatively, in cases where the registrant’s state license to practice
medicine has been suspended, revoked, or denied, the DEA may file a motion for
summary disposition instead of a prehearing statement. The purpose of a motion for
summary disposition is to quickly resolve cases where the registrant no longer meets
the criteria to hold a DEA registration.

       12   5 U.S.C. § 555(b).

       13   21 C.F.R. § 1316.54.

      14 Hearings held in person take place either at the Office of Administrative Law

Judges in Arlington, Virginia, or at a location convenient to the registrant.

       15   21 C.F.R. § 1316.64.

       16   21 C.F.R. § 1316.65(a).


U.S. Department of Justice                                                               3
Office of the Inspector General
Evaluation and Inspections Division
portions of it are erroneous.17 No sooner than 25 days after the issuance
of the recommended decision, the Office of Administrative Law Judges
certifies the case record and forwards it to the Office of the Administrator
for final review.18

       The Administrator issues a final decision by adopting, modifying,
or rejecting the ALJ’s recommended decision.19 The Administrator’s final
decision is published in the Federal Register. Registrants have the right
to appeal the decision to a U.S. Court of Appeals. If the decision is not
appealed, the administrative action is complete. Figure 1 illustrates the
process.




         17 21 C.F.R. § 1316.66. Alternatively, a party may request the ALJ’s permission

to file a response to the other party’s exceptions.

       18   21 C.F.R. § 1316.65(c).

       19   21 C.F.R. §§ 1301.46 and 1316.67.


U.S. Department of Justice                                                             4
Office of the Inspector General
Evaluation and Inspections Division
  Figure 1: The DEA’s Process for Adjudicating Registrant Actions


   Immediate suspensio n
      order served



     ,egistrallt requests
                                                            -~----"'----,
                                                              Registrilnt does rlot
                                                              respond to order to
           hearing


    -         ,                                                  show cause or
                                                            immed,ate suspension
                                                                     order
    Parties file prehearmg         If no faeWal disputes,
      statement5, hold               parties may litIgate
   prehearing conference,           rnotion for summary
   and Idemlry witnesses           disposition Instead of
         arld ex hibits


              •
                                          pre hearing
                                         st ateme rlt5

         Hearing Ilelo

               t
   Parties receive hearing
     transcr~~; and file
     post heanng briefs


             -*-
           AU issues
         reco mmended
            decision


              r
    PilrtJes have option to
         file exceptions


              L
   AU forwards reglstrarlt
       iletion to DEA
   Ad mif1lstrator for final
                               I                             Dlverston Uti9atlon
                                                              Section forw(lrds
                                                             registra nt <lct ion to
                                                            DEA Adm inistrator for
                                                                final de<:ision
           deCision
                                                                                  J

      DEA Administrator
     'ssues nnal d<lciSi(H1


Sources: Controlled Substances Act regulations and DEA documents.


U.S. Department of Justice                                                             5
Office of the Inspector General
Evaluation and Inspections Division
Number of Cases Adjudicated by the DEA Between 2008 and 2012

      The DEA issued final decisions in 178 registrant actions between
2008 and 2012. The Office of Administrative Law Judges issued a
recommended decision in a total of 117 registrant actions before the DEA
issued its final decision, including 76 actions involving orders to show
cause and 41 actions involving immediate suspension orders. The
Administrator was the sole adjudicator for the remaining 61 registrant
actions.

       According to DEA data, not all registrant actions initiated result in
final decisions. For example, while 505 new registrant actions were
initiated from 2008 through 2012, only 178 final decisions were issued
during that time period.20 DEA personnel told us that cases that do not
result in a final decision are closed in other ways, such as negotiating
settlements. When the registrant and the DEA pursue settlement
discussions during the adjudicative process, they may file prehearing
statements and hold prehearing conferences before coming to a
settlement agreement and asking the ALJ to terminate the proceedings.
DEA personnel told us that negotiating settlements can contribute to the
length of time to adjudicate registrant actions that do result in final
decision. Specifically, while settlements mean that the ALJ does not
have to devote time to holding a hearing or writing a recommended
decision, the ALJ must still hold prehearing conferences and review
documents that the parties file before they request termination. These
activities take time that is no longer available for the ALJ to devote to
registrant actions that are not settling and will require hearings and
recommended decisions. Settlement negotiations may also keep
attorneys from forwarding to the Administrator other registrant actions
in which the registrant does not request a hearing.

Federal Laws and Regulations, and DEA Policy, Related to the
Adjudication of Registrant Actions

     Below is a summary of federal laws and regulations, as well as a
DEA policy, regarding the adjudication of registrant actions.




        20 We cannot calculate the exact percentage of registrant actions initiated that

ended in a final decision because most of the final decisions issued in 2008 were for
registrant actions initiated in 2007 or earlier. Similarly, some of the registrant actions
initiated in 2012 were still pending at the end of the year. We present both numbers
not to calculate the ratio between them, but to illustrate that a final decision is not the
end result for most registrant actions that are begun.


U.S. Department of Justice                                                                    6
Office of the Inspector General
Evaluation and Inspections Division
   	 Controlled Substances Act of 1970 (Pub. L. No. 91-513, 21 U.S.C. §
      801 et seq.) regulates the manufacture, importation, possession,
      use and distribution of certain substances. Part C of the Act
      requires businesses and practitioners dealing in controlled
      substances to register with the DEA and establishes the grounds
      under which the DEA can deny, revoke, or suspend registrations.

   	 Administrative Procedure Act (Pub. L. No. 79-404, 5 U.S.C. § 551 et
      seq.) establishes administrative procedures for rule making,
      adjudications, and hearings in the federal government.
      Specifically, the Act requires that parties to a hearing must be
      given notice of the time and place of hearings, gives parties the
      right to be represented by counsel, enumerates the powers of a
      neutral ALJ to preside over a hearing and make or recommend a
      decision in the case, and requires that decisions be based
      exclusively on the case record.

   	 Title 21 of the Code of Federal Regulations § 1301.31-46 and
      § 1316.41-68 establishes procedures for the DEA to revoke, deny,
      or suspend registrations and sets a standard of imminent danger
      to the public health for suspension orders. The regulations outline
      the requirements for registrants to request hearings, the rules for
      ALJs to conduct hearings and issue recommended decisions, and
      the Administrator’s responsibility to issue the final decision. The
      regulations do not set timeliness standards other than giving the
      registrant 30 days to request a hearing and giving both parties
      20 days to submit exceptions after the ALJ issues a recommended
      decision; however, they do state that the ALJ and Administrator
      are to issue the recommended and final decisions “as soon as
      practicable” after the hearing.

   	 Memorandum from DEA Deputy Administrator (“Immediate
      Suspension of DEA Registration; Hearing Process,” issued in
      October 2006) establishes timeliness standards as a matter of
      internal DEA policy for adjudicating immediate suspension orders.
      The memorandum requires an ALJ to commence a hearing within
      60 days of the action being issued and to certify the hearing record
      to the Deputy Administrator within 150 days of a suspension. The
      memorandum also establishes a goal of issuing a final decision
      within 180 days of a suspension, giving the Office of the
      Administrator no more than 30 days after the record is certified.
      The timeliness standards are exclusive of any continuances
      requested by the registrant.



U.S. Department of Justice                                               7
Office of the Inspector General
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW 



       From 2008 through 2012, the process followed by the DEA for
adjudicating registrant actions was in compliance with 21 U.S.C. § 824
and its own regulations.21 However, these federal laws and regulations
do not establish timeliness standards for the adjudication of registrant
actions. We found that the DEA generally does not have timeliness
standards in place for its adjudication of registrant actions. The only
exception is for actions involving immediate suspension orders, for which
the DEA established timeliness standards in 2006. We found, however,
that from 2008 to 2012 the DEA consistently failed to meet these
timeliness standards in adjudicating immediate suspension orders. We
further found that the DEA’s adjudication process for those actions
where it had no timeliness standards was very lengthy, although we
noted that the DEA’s timeliness improved from 2008 through 2012.
Despite these improvements over the last few years, we found areas
where the DEA could enhance its performance, including establishing
timeliness standards for the adjudication of all registrant actions.

      In the following sections we discuss: (1) the overall timeliness of
the adjudication of registrant actions; timeliness of orders to show cause,
immediate suspension orders, and registrant actions adjudicated solely
by the Administrator; and the actions the DEA took during the scope of
the review to improve timeliness; (2) the impact of delays in the
adjudication of registrant actions on registrants, the public, and the
DEA; (3) factors that affect timeliness; and (4) actions taken by the DEA
that may improve timeliness in the future.

The DEA does not have timeliness standards for most of its
registrant actions and is not meeting its timeliness standards for
the one area where it does have them.

       The laws and regulations establishing the DEA adjudication
process do not include timeliness standards for the entire process, and
the DEA does not have timeliness standards that apply to all types of
registrant actions. However, a 2006 memorandum from the DEA Deputy
Administrator (“Immediate Suspension of DEA Registration; Hearing
Process,” issued in October 2006) established timeliness standards as a
matter of internal DEA policy for adjudicating immediate suspension
orders. However, we found that the adjudication of immediate
suspension orders fell short of the timeliness standard established in the
2006 memorandum.

       21   We did not assess the substantive basis for the DEA’s decisions.


U.S. Department of Justice                                                     8
Office of the Inspector General
Evaluation and Inspections Division
No timeliness standards apply to all types of registrant actions.

       No law or regulation imposes specific timeliness standards for the
DEA’s registrant action process. The Administrative Procedure Act
requires agencies to conclude matters presented to them “within a
reasonable time.”22 In addition, the Controlled Substances Act
regulations require an ALJ to issue a recommended decision “as soon as
practicable” after a hearing has been held and the parties have had the
opportunity to submit proposed findings of fact and conclusions of law.23
Similarly, the Controlled Substances Act regulations require the
Administrator to issue a final decision “as soon as practicable” after
receiving the certified record.24

        DEA policy does not specify comprehensive timeliness standards
for all registrant actions. However, in October 2006, the DEA issued a
memorandum (2006 memorandum) that established timeliness
standards for immediate suspension orders.25 According to the
Administrator, this memorandum was issued chiefly in response to a
preliminary injunction issued by a U.S. District Court after finding that
the DEA violated the due process clause of the Fifth Amendment by not
providing a timely hearing for a registrant who had received an
immediate suspension order.26 The 2006 memorandum establishes that
the DEA should issue a final decision within 180 days from the issuance
of an immediate suspension order. It also required ALJs to commence a
hearing within 60 days of issuance of an immediate suspension order
and to submit the certified record of the hearing to the Administrator for
a final decision within 150 days of the issuance of an immediate
suspension order.

      The 2006 memorandum established timeliness standards only for
immediate suspension orders where a registrant requests a hearing. The
2006 memorandum did not specify timeliness standards for immediate
suspension orders for cases where the registrant fails to request a
hearing; such cases are adjudicated solely by the Administrator. Nor did

       22   5 U.S.C. § 555(b).

       23   21 C.F.R. § 1316.65.

       24   21 C.F.R. §§ 1301.46 and 1316.67.

       25 The memorandum was issued by the then-Deputy Administrator, who has

since become the Administrator.

       26 See Apothecary Arts Pharmacy, Inc. v. Gonzales, No. 06-119 (D.D.C. Feb. 3,
2006) (order granting preliminary injunction and dissolving the DEA’s immediate
suspension).


U.S. Department of Justice                                                         9
Office of the Inspector General
Evaluation and Inspections Division
the memorandum establish timeliness standards for orders to show
cause, either where a registrant requests a hearing or in cases
adjudicated solely by the Administrator.

The overall time it takes the DEA to adjudicate registrant actions
continues to be very lengthy, although timeliness is improving.

       During the period from 2008 through 2012, we found that the
average number of days for the DEA to adjudicate registrant actions,
from initiation to final decision, peaked in 2009 at 730 days on average
(or 2 years) and declined each year thereafter to 366 days on average (or
about 1 year) by 2012. Figure 2 shows the DEA’s timeliness for
adjudicating registrant actions, including the timeliness of the Office of
Administrative Law Judges and the Office of the Administrator for all
registrant actions from 2008 through 2012.

Figure 2: Average Days to Adjudicate All Registrant Actions by Year,
                        2008 through 2012




 Note: Averages for the time from issuance to final decision include all 178 registrant
 actions. Averages for the Office of Administrative Law Judges jurisdiction include
 only the 117 registrant actions that resulted in an ALJ’s recommended decision.
 Averages for the Office of the Administrator include 175 registrant actions, excluding
 3 where the DEA could not determine the date of forwarding to the Office of the
 Administrator.

 Source: OIG analysis.



U.S. Department of Justice                                                         10
Office of the Inspector General
Evaluation and Inspections Division
       We found that 117 cases during this period came under the Office
of the Administrative Law Judges’ jurisdiction and that the number of
days those cases spent pending with the Office of Administrative Law
Judges declined from an average of 362 days in 2008 to an average of
210 days in 2012, an improvement of 152 days or about 5 months.27
The Office of the Administrator was responsible for all 178 registrant
actions beginning when they were forwarded by the Office of
Administrative Law Judges or the Diversion Litigation Section until a
final decision was issued.28 The Office of the Administrator’s average
time for reviewing cases improved between 2008 and 2012, declining
from 194 days on average in 2008 to 169 days on average in 2012, an
improvement of about a month.

       In the following sections, we separately assess the DEA’s timeliness
in adjudicating orders to show cause and immediate suspension orders,
as well as registrant actions adjudicated solely by the Administrator
without an ALJ’s recommended decision. We also discuss steps DEA
management took to improve the timeliness of the adjudication of
registrant actions, as well as how enforcement operations and
administrative procedures can affect the timeliness of issuing final
decisions.

The DEA consistently failed to meet its own timeliness standards in
adjudicating immediate suspension orders.

       As stated above, the 2006 memorandum establishes a goal to issue
final decisions for immediate suspension orders in 180 days. The
memorandum further provides that an ALJ must commence a hearing
within 60 days after an immediate suspension order is issued unless the
registrant requests a continuance, waives the right to a hearing, or fails
to respond. The memorandum additionally requires the Office of
Administrative Law Judges to submit a certified record and
recommended decision to the Office of the Administrator no more than
150 days after the immediate suspension order is issued, although this
deadline can be extended by the length of any continuance requested by
a registrant. Thus, under these time frames, the Office of the

       27 We excluded 11 registrant actions from this analysis where the registrant

requested a hearing but the ALJ terminated the proceedings without issuing a
recommended decision. In an additional 50 registrant actions, the registrant did not
request a hearing. We discuss these 61 registrant actions below as part of our analysis
of cases adjudicated solely by the Administrator.

       28 The Diversion Litigation Section forwards actions to the Office of the
Administrator when the registrant does not request a hearing or the proceedings are
terminated without issuing a recommended decision by an ALJ.


U.S. Department of Justice                                                         11
Office of the Inspector General
Evaluation and Inspections Division
Administrator would have 30 days to issue a final decision after the time
allowed for the Office of Administrative Law Judges to submit the
certified record.

        We found that the DEA’s adjudication of these cases was not
compliant with the timeliness standards the DEA established in the 2006
memorandum. Specifically, we found that the average number of days to
adjudicate immediate suspension orders with an ALJ’s recommended
decision ranged from 647 days on average in 2008 to 459 days on
average in 2012.29 We also found that the average time for the Office of
Administrative Law Judges to adjudicate immediate suspension orders,
starting when the immediate suspension order was issued and ending
when a recommended decision was forwarded to the Office of the
Administrator, ranged from 416 days on average in 2008 to 274 days on
average in 2012.30 Finally, we found that the Office of the Administrator
itself took from 231 days on average in 2008 to 185 days on average in
2012 to issue a final decision. Figure 3 shows the timeliness of the
adjudication of immediate suspension orders based on timeliness
standards identified in the 2006 memorandum.




       29  The averages were increased by cases in which testimony was provided
during proceedings that lasted several years. During administrative proceedings, ALJs
have discretion to set deadlines and grant extensions. In one case that lasted over
4 years, the ALJ granted 19 separate requests for an extension by the registrant. We
further discuss how ALJs vary in conducting proceedings below.

        30 For immediate suspension orders, we based our analysis on the date the

orders were issued because that is the date the 2006 memorandum used to calculate
timeliness. The average times for the portion of the process that begins with a
registrant’s request for a hearing and ends when the immediate suspension order is
forwarded to the Office of the Administrator for review are 393 days in 2008 and
244 days in 2012.


U.S. Department of Justice                                                       12
Office of the Inspector General
Evaluation and Inspections Division
 Figure 3: DEA Timeliness Standards Compared with Average Days
      to Adjudicate Immediate Suspension Orders with ALJ’s
           Recommended Decision, 2008 through 2012
                   700

                   600

                   500
    Average Days




                   400

                   300

                   200         180
                               150
                   100
                                60
                    0
                         Timeliness   2008      2009       2010        2011   2012
                          Standard
                                        Office of the Administrator Review
                                        ALJs: Issuance to Forwarding
                                        ALJs: Issuance to Hearing

  Note: The averages for Office of the Administrator Review and for the Office of
  Administrative Law Judges from issuance to forwarding include all 41 cases that
  fell under the jurisdiction of the Office of Administrative Law Judges and resulted
  in an ALJ’s recommended decision. The average for the Office of Administrative
  Law Judges from issuance to hearing includes only the 28 cases that had a
  hearing and resulted in a recommended decision.

  Source: OIG analysis.

       While the overall adjudication of immediate suspension orders was
not compliant with timeliness standards established in the 2006
memorandum, we found that absent requests for continuances from the
registrant, the Office of Administrative Law Judges generally met the
150-day standard the memorandum established for aspects of the
adjudication process that fell within its jurisdiction.31 Specifically, in the
13 immediate suspension orders where the registrants did not request
any continuances, we found that the Office of Administrative Law Judges




      31 Registrants requested 1 or more continuances in 68 percent (28 of 41) of

immediate suspension orders that included a recommended decision.



U.S. Department of Justice                                                           13
Office of the Inspector General
Evaluation and Inspections Division
averaged 105 days to forward the certified case file on to the Office of the
Administrator.32

       We further found that the average number of days the Office of the
Administrator took to issue final decisions for immediate suspension
orders exceeded 30 days in all but one immediate suspension order
where an ALJ issued a recommended decision. Specifically, for all
immediate suspension orders between 2008 and 2012, we found that the
Office of the Administrator averaged 203 days to issue final decisions
after the Office of Administrative Law Judges forwarded a recommended
decision. By itself, this 203-day average for just the Office of the
Administrator’s review exceeded the 180-day timeliness goal that the
2006 memorandum established for the entire adjudicative process. We
further found that the Office of the Administrator exceeded 180 days on
average for its review of recommended decisions and issuance of final
decisions in 4 of the 5 years within the scope of our review.

       The excessive delay in the DEA’s handling of adjudications was
most clearly evidenced by its failure to timely adjudicate certain cases we
reviewed where precedent required revocation. According to DEA officials
and staff, some immediate suspension orders do not involve issues that
necessitate time-consuming review because agency precedent clearly
requires revocation. For example, DEA officials and staff told us that
DEA precedent requires that a registration be revoked if it is held by a
registrant who has lost a state license to practice medicine. In those
circumstances where administrative precedent compels revocation, the
Office of Administrative Law Judges issues a recommended decision in
favor of revocation after the registrant and the Diversion Litigation
Section attorney submit arguments on a motion for summary
disposition. Between 2008 and 2012, the Administrator made a final
decision in 13 cases with immediate suspension orders that involved an
ALJ’s summary disposition in favor of revocation.33 In those 13 cases,


        32 The 2006 memorandum states that if a registrant requests a continuance,

the number of days added to the adjudication of the order as a result do not count
toward the Office of Administrative Law Judges’ 150-day total. However, while the
DEA’s case tracking systems can show how many continuances were requested in each
registrant action, it cannot show how much time those requests added to the length of
the adjudication. We were therefore unable to determine whether the Office of
Administrative Law Judges met its 150-day timeframe in cases that included registrant-
requested continuances.
       33 Overall, 40 of the 178 registrant actions during the time period of our review

involved summary disposition. In addition to the 13 actions discussed above,
27 registrant actions involved summary dispositions following an order to show cause.
In these 27 registrant actions, even though the DEA precedent required revocation, the
                                                                                 (Cont’d.)

U.S. Department of Justice                                                           14
Office of the Inspector General
Evaluation and Inspections Division
even though the outcome of revocation was required by DEA precedent,
the Office of Administrative Law Judges took an average of 90 days from
issuance of the immediate suspension order to forward the ALJ’s
recommended decision to the Office of the Administrator, and the Office
of the Administrator took an average of 203 days to issue a final decision
after receiving the case from the Office of Administrative Law Judges.34

The time to adjudicate orders to show cause is very lengthy, although
timeliness has recently improved.

      As noted previously, the DEA has no timeliness standards for
issuing final decisions for actions involving orders to show cause, and we
found that the time it took for the DEA to issue final decisions was very
lengthy. For example, we found that overall it took the DEA on average
616 days in 2008 to 371 days in 2012 to issue a final decision. We
further found that, in 2008, the Office of Administrative Law Judges’
jurisdiction averaged 336 days, whereas in 2012 it averaged 181 days.
In addition, we found that, in 2008, the Office of the Administrator
averaged 244 days to issue a final decision after the Office of
Administrative Law Judges forwarded an ALJ’s recommended decision,
whereas in 2012, the Office of the Administrator averaged 158 days to
issue a final decision.

Adjudications by the Office of the Administrator have become less timely
for those matters where an ALJ recommended decision was not required.

       The regulations establishing the DEA’s authority to adjudicate
registrant actions do not establish a process for adjudicating cases if the
registrant fails to request a hearing, formally waives a hearing, or has
hearing proceedings terminated by an ALJ’s order.35 Sixty-one
(34 percent) of the 178 registrant actions within the time period of our
review did not require an ALJ recommended decision for one of these
reasons, and therefore were adjudicated solely by the Office of the
Administrator. In these circumstances, the DEA has no timeliness
standards and the DEA Diversion Litigation Section attorney assigned to


Office of Administrative Law Judges averaged 118 days to issue its summary decision,
and the Office of the Administrator averaged 185 days to issue its final decision.

       34 We discuss below the DEA’s plans to delegate authority to make final

decisions in summary disposition cases to the Deputy Administrator.

        35 ALJs terminated hearing proceedings in 11 registrant actions for reasons

such as the registrant withdrawing a hearing request, the registrant facing prosecution
for criminal charges, or the registrant failing to meet deadlines for submitting
prehearing documents.


U.S. Department of Justice                                                         15
Office of the Inspector General
Evaluation and Inspections Division
the case is responsible for forwarding the case to the Office of the
Administrator for final decision.

       We found that the Diversion Litigation Section’s time to forward
these cases to the Office of the Administrator for a final decision
improved from 137 days on average in 2008 to 58 days on average in
2012.36 However, we also found that the Office of the Administrator’s
time to issue a final decision increased over this same period from an
average of 98 days in 2008 to an average of 167 days in 2012. Because
the Diversion Litigation Section’s improvement was almost entirely offset
by an increase in the Office of the Administrator’s average time, the time
between when the registrant action was issued and when the DEA made
its final decision improved only slightly from an average of 303 days in
2008 to 281 days in 2012.37

DEA management took certain steps in an effort to improve the
timeliness of the adjudication of registrant actions between 2008 and
2012.

      DEA management implemented efforts to improve timeliness
during the scope of our review that may have contributed to the
improvements in timeliness that we found. For example, the DEA
increased the staff in both the Office of Administrative Law Judges and
the Diversion Litigation Section from 2008 through 2012 due, in part, to
a management decision to use registrant actions more frequently.38 The
number of Administrative Law Judges increased from 2 in 2008 to 3 by
2012, and the number of attorneys in the Diversion Litigation Section
increased from 5 attorneys in 2006 to 12 in 2013.39



       36  We discuss the role of the Diversion Litigation Section in forwarding cases to
the Office of the Administrator further below.

       37  Included in the averages for the entire adjudicative process is the time from
when a registrant action is issued to when the Diversion Litigation Section becomes
aware that it will be responsible for forwarding the registrant action to the Office of the
Administrator. This may happen because the deadline has passed for the registrant to
request a hearing and the registrant has not done so, because the registrant formally
waived a hearing, or because an ALJ terminated the proceedings. The average amount
of time in this stage of the adjudication was 72 days in 2008 and 55 days in 2012.

       38 We further discuss a shift in DEA enforcement operations and its impact on

the adjudication of registrant actions below.

       39 The Chief ALJ told us that a third ALJ was added to the Office of
Administrative Law Judges in 2009 because delays in issuing recommended decisions
were increasing. The Chief ALJ also told us that the Office of Administrative Law
                                                                                (Cont’d.)

U.S. Department of Justice                                                             16
Office of the Inspector General
Evaluation and Inspections Division
       We also found that the Chief ALJ issued internal policies and
training to ensure the timely processing of registrant actions. In
addition, Diversion Litigation Section Chiefs directed attorneys in the
section to limit their requests for continuances during the hearing
process.

Office of Administrative Law Judges’ Efforts to Improve Timeliness

      Our review of DEA data showed that the Office of Administrative
Law Judges’ timeliness in the adjudication process has improved since
the current Chief ALJ was promoted to that position in 2010. For
example, the timeliness of registrant actions from initiation of an order to
when the Office of Administrative Law Judges forwarded an ALJ’s
recommended decision to the Office of the Administrator decreased from
an average of 570 days in 2010 to an average of 241 days in 2012, an
improvement of 10 months.

       We found that the Chief ALJ instituted internal policies and
training designed to hold staff accountable for the timely processing of
registrant actions. For example, in February 2011, in response to an
increased workload, the Chief ALJ issued a memorandum to “ensure
accountability and to clarify lines of staff responsibility.” Within the
memorandum, the Chief ALJ stated that, “one of the fundamental
functions of [the Office of Administrative Law Judges] is to keep cases
moving efficiently and accurately through the system towards a
recommended decision . . . or to some other permanent solution.” The
Chief ALJ also established an Office of Administrative Law Judges
Central Staff in May 2012 responsible for “ensuring that cases,
communication, and documents move efficiently and accurately through
the system to facilitate an expeditious recommended decision.” In
addition, the Chief ALJ created training materials for new ALJs and
Office of Administrative Law Judges staff, including an orientation
manual that includes guidance on drafting orders and opinions,
prehearing conferences, and hearing preparation.

Diversion Litigation Section Efforts to Improve Timeliness

      We found Diversion Litigation Section Chiefs directed the section’s
attorneys to restrict the number of requests for continuances.40 The

Judges hired a fourth ALJ during the scope of the OIG’s review, but the ALJ had to
retire unexpectedly.

       40  We could not confirm a trend of decreased continuance requests on the part
of Diversion Litigation Section attorneys through analysis of the registrant action data.
Continuances were requested by the DEA’s attorneys in 20 percent of registrant actions
                                                                                  (Cont’d.)

U.S. Department of Justice                                                           17
Office of the Inspector General
Evaluation and Inspections Division
ALJs also told us that they believe Diversion Litigation Section attorney
requests for continuances were more limited today than in the past. The
Chief ALJ, who joined the Office of Administrative Law Judges in 2009,
said that Diversion Litigation Section attorneys requested fewer
continuances than they used to in his cases and they provide better
justifications for the continuances they do request.

Delays in the adjudication process adversely affect the DEA,
registrants, and public.

       The DEA established its process to adjudicate registrant actions to
protect public health and safety from imminent threats posed by the
misconduct of registrants. Given these public health and safety
concerns, it is essential that the process to adjudicate registrant actions
be timely. The DEA further articulated the importance of a timely
adjudication process, particularly for those registrants issued an
immediate suspension order, by stating in the 2006 memorandum that a
prompt post-deprivation hearing and decision are required by the due
process clause of the Constitution. Regarding orders to show cause,
both past and present DEA officials said the impacts of delays in the
adjudication process are twofold: noncompliant registrants could
continue prescribing drugs, while compliant registrants could go out of
business. Throughout our review, DEA officials and staff provided us
with examples of adverse effects from delays in the adjudication of
registrant actions not only on the public and the registrants, but on the
DEA itself. Below we discuss some of these adverse effects.

Delays in the adjudication of registrant actions create risks to public
health and safety.

       Although the public is not directly involved in the adjudication of
registrant actions, DEA staff and officials we spoke to said that the
public still has a vested interest in the timely resolution of all orders to
show cause and immediate suspension orders. For example, an ALJ
noted that registrants whose registrations should be revoked put people
at risk. Delays in the adjudication of registrant actions expose the public
to health and safety threats posed by the misconduct of registrants. The
Chief ALJ also told us that if a doctor is issued an order to show cause,
that doctor can keep writing diverted prescriptions until the DEA makes
a final decision. In such cases, particularly if there is no immediate


that reached final decision throughout our scope. However, the adjudication process
often spanned more than 1 year, and our analysis was able to capture only the total
number of continuance requests per registrant action rather than the specific year in
which each continuance request was made.


U.S. Department of Justice                                                         18
Office of the Inspector General
Evaluation and Inspections Division
suspension order, a timely adjudication process is essential to protecting
public health and safety.

A registrant’s livelihood, career, and ability to do business are affected by
delays in the adjudication process.

        A former Diversion Litigation Section Chief described the effect of
delays in the adjudication of registrant actions as, “justice delayed is
justice denied.” Current DEA staff and officials told us that delays in the
adjudication of registrant actions not only raise due process concerns, as
discussed above, but that registrants who are engaged in legitimate
business practices face additional harms. For example, doctors who lack
controlled substance prescribing authority as a result of an immediate
suspension order cannot fully practice medicine unless the order is
lifted, which affects their professional livelihood, can cause financial
losses and hardship on their families, can harm their reputation, and
can affect whether their claims are accepted by their patients’ insurance
companies.41

       Several DEA employees we interviewed noted that the detrimental
impact on registrants of the uncertainty created by the adjudication
process is accentuated when the process is unnecessarily delayed. The
Diversion Litigation Section Chief said that, when there are delays in the
adjudication of registrant actions, a registrant is “in limbo.” A Diversion
Litigation Section attorney similarly noted that registrants encounter
“uncertainty” because, even though registrants who are served with an
order to show cause can still practice, the issues are unresolved. The
attorney said a registrant’s business potential could completely change
when a final decision is delayed. Another Diversion Litigation Section
attorney said the impact of delays is worse for registrants with pending
applications who are served with an order to show cause because they do
not have a registration yet, which can impede their practice of medicine.
In our review of final decisions, we found examples of such delays both
in cases where the applicant was eventually granted a registration and
was able to open a practice and in cases where the applicant’s
registration was eventually denied. Specifically, one applicant testified in
her hearing that she had suspended her job search because most “of the
positions I have sought require a DEA [registration] or else eligibility
within a year” and she did not know how long the adjudication process
would take. The Administrator granted this applicant a new registration
9 months after the hearing.

       41A former Diversion Litigation Section Chief told us that most medical
insurance carriers require practitioners to hold a registration before they will accept a
claim.


U.S. Department of Justice                                                            19
Office of the Inspector General
Evaluation and Inspections Division
The effects of delays in the adjudication process on the DEA include
mission failure, evidence becoming stale, and decreased employee
morale.

      The DEA’s mission includes protecting the public and enforcing
federal drug laws. DEA officials and staff told us that delays in the
adjudication of registrant actions create the risk to the DEA and public
that registrants may not stop their criminal behaviors, particularly in
cases where the registrant is not served an immediate suspension order
and therefore can continue treating patients.

       In addition, DEA officials and staff had concerns regarding legal
issues that can result from delays in the adjudication of registrant
actions. For example, delays in the adjudication of registrant actions
result in evidence used to support a registrant action becoming old, or
“stale.” A Diversion Litigation Section attorney described the impact of a
final decision that she described as “stale.” She told us about a final
decision where the Administrator dismissed the case after a 1-year wait
could be affected by that delay because if the case is re-charged all of the
evidence will be more than a year old. The Administrator’s Attorney
Advisor told us about another case where he described the evidence
against a doctor who was the subject of an immediate suspension order
as very stale. In that case, the Court of Appeals took note of the DEA’s
lengthy adjudication, even though the court upheld the DEA’s final
decision.

      Finally, some DEA employees we interviewed noted that delays in
the adjudication of registrant actions can affect employee morale and
harm public perception. For example, one ALJ told us that DEA field
agents, such as Diversion Investigators, get frustrated by delays, leading
to lower morale, and a former Diversion Litigation Section Chief said
delays make the DEA appear inefficient to the public and the regulated
community.

Enforcement operations and administrative procedures can affect
the timeliness of issuing final decisions.

       We found several factors in the DEA’s process to adjudicate
registrant actions, as well as its diversion enforcement efforts, that can
substantially affect the timeliness of final decisions. First, the caseload
of registrant actions has increased due to diversion enforcement efforts.
Second, immediate suspension orders are expedited and take priority
over other registrant actions. Third, there are variations between ALJs in
how they prefer to manage their caseloads. Fourth, there are no
procedures or timeliness standards for the Diversion Litigation Section to
forward registrant actions adjudicated solely by the Administrator to the

U.S. Department of Justice                                              20
Office of the Inspector General
Evaluation and Inspections Division
Office of the Administrator. Fifth, all registrant actions are reviewed
twice within the Office of the Administrator prior to the Administrator’s
final decision. Finally, the DEA cannot effectively determine the time it
takes to adjudicate each registrant action through final decision.
Overall, we found that each of these issues represents an area where the
DEA could assess its procedures and operations to determine whether
appropriate changes could be effected to improve its overall timeliness of
the adjudication of registrant actions.

The DEA’s diversion enforcement operations have increased the caseload
of registrant actions.

       In recent years, the DEA has devoted more resources to preventing
the diversion of prescription drugs for illegitimate purposes, which has
led to an increase in the number of registrant actions initiated, a larger
adjudicative workload, and a corresponding increase in the number of
final decisions issued. Specifically, we found the number of immediate
suspension orders that were initiated increased 71 percent throughout
our scope, from 24 in 2008 to 41 in 2012, reaching a high of 65 in 2011.
In addition, while 50 orders to show cause were issued in both 2008 and
2012, orders to show cause ranged from 74 in 2009 to 66 in 2011. The
Administrator and the Deputy Chief Counsel told us that the DEA issued
more registrant actions due to a shift in diversion enforcement strategies
focused on three emerging threats to public health and safety: internet
pharmacies, “pill mills,” and wholesale distributors.42 The Deputy Chief
Counsel added that with registrant actions issued to address these
emerging threats there was a learning curve on the best way to litigate
the cases, which could have affected the timeliness of the adjudication
process.

       Additionally, the Deputy Chief Counsel and Diversion Litigation
Section Chief stated that the decrease in the number of registrant actions
initiated in 2012 can also be attributed to the previously mentioned
increased volume of cases against manufacturer and distributor
registrants that began in 2006. They said that when the DEA began
focusing registrant actions against large, wholesale distributors rather
than simply “rounding up” individual pain clinic practitioners, fewer
registrant actions were issued, although those that were issued were
more complicated and time-consuming to litigate.



        42 “Pill mills” are medical clinics (sometimes called pain management clinics)

that distribute without a legitimate medical purpose large amounts of controlled
substances such as painkillers or anti-anxiety medications to patients. The drugs are
often dispensed without a complete medical exam or a clear diagnosis.


U.S. Department of Justice                                                         21
Office of the Inspector General
Evaluation and Inspections Division
       We also found that more complicated cases against large
distributors are more likely to result in multiple actions that are then
consolidated into a single case, which can result in delays in issuing final
decisions. The Diversion Litigation Section Chief told us that
consolidating cases can also lead to delays. He said that, for example,
large corporations hold multiple registrations and sometimes in charging
these companies, the DEA will issue orders to show cause on two to
three of the company’s registrations, then serve additional orders to show
cause on additional registrations as an investigation develops. The Chief
ALJ agreed that this practice can lead to delays for the original order to
show cause because federal law dictates that multiple cases arising from
the same pattern of facts should be consolidated to ensure consistent
decisions. Furthermore, DEA personnel said that negotiating
settlements in cases that do not result in a final decision can contribute
to delays in the adjudication of other registrant actions that may result
in a final decision. For example, when the registrant and the DEA
pursue settlement discussions during the adjudicative process, they may
file prehearing statements and hold prehearing conferences before
coming to a settlement agreement and asking the ALJ to terminate the
proceedings. While settlements mean that the ALJ does not have to
devote time to holding a hearing or writing a recommended decision, the
ALJ must still hold prehearing conferences and review documents that
the parties file before they request termination. These activities take
time that is no longer available for the ALJ to devote to registrant actions
that are not settling and will require hearings and recommended
decisions. Settlement negotiations may also keep attorneys from
forwarding other registrant actions to the Administrator when the
registrant does not request a hearing.

Immediate suspension orders are expedited over other cases.

       Officials and staff in the Office of Administrative Law Judges, the
Diversion Litigation Section, and the Office of the Administrator told us
that when a registrant is issued an immediate suspension order and
requests a hearing, staff will prioritize the matter over other pending
registrant actions. For example, an ALJ stated that immediate
suspension orders, which raise due process concerns, “go to the head of
the line when they come in.” Similarly, the Administrator said that she
prioritizes immediate suspension orders over other cases, which may
result in cases that require little legal analysis being set aside and not
completed so that immediate suspension orders can be adjudicated first.

      DEA staff also told us that it can be difficult to prioritize immediate
suspension orders and still meet the timeframes in the 2006
memorandum, particularly when numerous immediate suspension
orders are issued in a short period of time. The Administrator told us

U.S. Department of Justice                                              22
Office of the Inspector General
Evaluation and Inspections Division
that when the 2006 memorandum was issued, the DEA was initiating
only 5 or 6 immediate suspension orders a year, whereas our review
found that immediate suspension orders represented 32 percent of
all registrant actions initiated in 2008 (24 of 74) and 45 percent of all
registrant actions initiated in 2012 (41 of 91).

ALJs vary in how they conduct proceedings.

       ALJs have discretion in setting initial dates and deadlines for
prehearing briefs, responses to motions, exhibit filings, status reports on
stays granted, hearings, and post-hearing briefs. Our review of docket
sheets found that ALJs varied in the time it took them to complete the
three major stages of registrant actions in which the registrant requested
a hearing: (1) the pre-hearing stage; (2) the post-hearing stage; and
(3) the post-decision stage. We found that the average time, by ALJ, for
the pre-hearing stage ranged from 120 days to 219 days – a difference of
over 3 months. One ALJ averaged 43 days for the post-hearing stage,
whereas another ALJ averaged 302 days – a difference of over 8 months.
Table 2 shows the individual ALJs’ average number of days to complete
each of the three stages under their jurisdiction from 2008 through
2012.

    Table 2: Average Timeliness of ALJs from Hearing Request to 

             Recommended Decision, 2008 through 2012 


                Average Days for       Average Days for      Average Days for
       ALJ
                Pre-hearing Stage     Post-hearing Stage    Post-decision Stage

        A              120                   43                      33
        B              134                   88                      33
        C              146                   282                     42
        D              219                   302                     47
   Note: We excluded one ALJ who presided over only one case that resulted in a
   final decision.

   Source: OIG analysis of Office of Administrative Law Judges docket sheets.

The DEA does not have procedures or timeliness standards for managing
cases adjudicated solely by the Administrator.

      We found that the DEA does not have procedures or timeliness
standards for forwarding registrant actions to be adjudicated solely by
the Administrator to the Office of the Administrator for a final decision.
Registrants have 30 days after being served with an order to show cause




U.S. Department of Justice                                                        23
Office of the Inspector General
Evaluation and Inspections Division
or an immediate suspension order to submit a request for a hearing to
the Office of Administrative Law Judges.43 If a registrant requests a
hearing, the regulations specify that the Office of Administrative Law
Judges should provide the case to the Office of the Administrator for a
final decision no less than 25 days from when the ALJ issues the
recommended decision.44 However, the regulations do not specify a
process or timeliness standards for providing cases to the Office of the
Administrator for a final decision when the registrant does not request a
hearing, misses the deadline to request a hearing, waives the right to a
hearing, or an ALJ terminates hearing proceedings without issuing a
recommended decision.45 In such cases, Diversion Litigation Section
attorneys are responsible for preparing a summary of the DEA’s
argument as to why a registration should be revoked, compiling exhibits
and other evidence to support that argument, and forwarding those
materials to the Office of the Administrator for a final decision.

       Between 2008 and 2012, the average time Diversion Litigation
Section attorneys took to prepare these materials was 98 days. While the
Diversion Litigation Section Chief told us that it is “fairly rare” for a
registrant not to request a hearing after being served with an order to
show cause or an immediate suspension order, we found that registrant
actions adjudicated solely by the Administrator represented 34 percent
(61 of 178) of all registrant action final decisions issued between 2008
and 2012.

       We found no formal guidance regarding registrant actions without
a request for a hearing, including timeliness standards for forwarding
these cases or guidance stating which case materials are to be forwarded
to the Office of the Administrator. Specifically, we found that the
Diversion Litigation Section attorneys had self-imposed timeframes to
forward registrant actions to be adjudicated solely by the Administrator
to the Office of the Administrator, and those timeframes varied. For
example, one Diversion Litigation Section attorney said that the
Diversion Litigation Section has no formal expectations for how quickly
she prepares and forwards case materials to the Office of the
       43   21 C.F.R. § 1301.43(a).

       44   21 C.F.R. § 1316.65(c).

        45 Under 21 C.F.R. § 1301.43(d)-(e), if the registrant or applicant fails to request

a hearing, or fails to appear at the hearing requested by the registrant or applicant, the
registrant or applicant is considered to have waived the opportunity for a hearing,
unless good cause can be shown for the failure to request a hearing or appear at the
requested hearing. If all parties entitled to a hearing are deemed to have waived that
hearing, the Administrator may cancel the hearing and issue a final decision without a
hearing.


U.S. Department of Justice                                                             24
Office of the Inspector General
Evaluation and Inspections Division
Administrator, but her personal goal was to submit the materials no
more than 6 weeks after the registrant’s failure to request a hearing.
Another attorney told us her goal was 30 days. We also found that the
Diversion Litigation Section did not have any written guidance on what
information to include in the materials forwarded to the Office of the
Administrator. Diversion Litigation Section attorneys told us that they
included all of the evidence that they would have presented at a hearing
if the registrant had requested one. A former Diversion Litigation Section
Chief we interviewed noted that the decision about what materials are
provided to the Administrator is important, as those materials would, in
the case of an appeal, be provided to the court as the basis for the DEA’s
decision.

      The Deputy Chief Counsel said that delays in forwarding registrant
actions adjudicated solely by the Administrator were likely because
Diversion Litigation Section attorneys had a lot of work that was both
time-sensitive and contested, and requests for final decisions were
neither. He added that if a registrant effectively conceded and elected
not to avail itself of the DEA’s adjudication procedures, it was not
surprising that Diversion Litigation Section attorneys would deem work
on such registrant actions a low priority relative to their other
responsibilities.

The Office of the Administrator’s review averages 162 days (more than
5 months) for registrant actions in all categories.

      According to the DEA’s 2006 memorandum, for immediate
suspension orders the goal is to issue a final decision within 180 days.
As specified in the 2006 memorandum, the Office of Administrative Law
Judges is required to submit the certified record and a recommended
decision to the Office of the Administrator no more than 150 days after
an immediate suspension order is issued, thereby providing the Office of
the Administrator 30 days to issue a final decision. As stated earlier, we
found that the average number of days the Office of the Administrator
took to issue final decisions for immediate suspension orders exceeded
30 days in all but one immediate suspension order where an ALJ issued
a recommended decision. Specifically, between October 2010 and the
end of 2012, the Office of the Administrator averaged 175 days to review
immediate suspension orders, which is nearly the amount of time the
2006 memorandum envisioned for the entire adjudicative process.

       We found that when registrant action cases are received in the
Office of the Administrator they are reviewed first by an Attorney Advisor
who reads the entire file and drafts a proposed final decision either
agreeing with the ALJ’s recommended decision or modifying it, and then
by the Administrator, who reviews the Attorney Advisor’s proposal and

U.S. Department of Justice                                            25
Office of the Inspector General
Evaluation and Inspections Division
makes the final decision.46 The Attorney Advisor told us that a number
of factors, such as the physical length of a case file, can affect how long it
takes the Office of the Administrator to review a registrant action and
issue a final decision.

       The Attorney Advisor told us that since October 2010 he has used
a spreadsheet to track the progress of registrant actions once they are
received by the Office of the Administrator. We reviewed the Attorney
Advisor’s spreadsheet and found that the Attorney Advisor’s review of the
case file and the Administrator’s review of the proposed final decision
averaged between 36 days and 126 days each, respectively, depending on
the type of case. As a result, the Office of the Administrator averaged
175 days to review immediate suspension orders.47 For orders to show
cause and cases adjudicated solely by the Administrator, where the DEA
has not imposed any timeframes, the Office of the Administrator
averaged between 150 and 162 days to issue final decisions (5 months).
See Table 3 for the average number of days for the Attorney Advisor’s
review and the Administrator’s review of registrant actions from October
2010 to December 2012.




       46 After reviewing a working draft of this report, the DEA emphasized that the
review within the Office of the Administrator is a single review involving consultation
between the Administrator and the Attorney Advisor, not two sequential reviews.
Nevertheless, because the data provided to us by the DEA tracked the dates for the
Attorney Advisor’s and the Administrator’s reviews separately, and because the process
was presented to us during interviews with DEA personnel as a two-stage review, we
have assessed the timeliness of the Administrator and Attorney Advisor both separately
and together in this report.

       47 In 3 of the 17 immediate suspension orders decided between October 2010

and December 2012, the Administrator’s review took more than 10 months, which is
why her average review time for immediate suspension orders was 110 days. If these
three cases were excluded, her average review time for immediate suspension orders
would have been 63 days.


U.S. Department of Justice                                                         26
Office of the Inspector General
Evaluation and Inspections Division
   Table 3: Average Days for the Attorney Advisor’s Review and the 

            Administrator’s Review of Registrant Actions, 

                  October 2010 to December 2012 

                               Attorney Advisor’s     Administrator’s       Total
                                 Average Days          Average Days      Average Days
All Cases (61)                        102                   60               162
Orders to Show Cause (24)              126                   36               162
Immediate Suspension
                                        65                  110               175
Orders (17)
Adjudicated Solely by
                                       104                   47               150
Administrator (20)
Notes: Averages for cases adjudicated solely by the Administrator do not add up due to
rounding.

For our analysis, we examined only cases that were published in the Federal Register by
the end of 2012.

Source: OIG analysis of Attorney Advisor’s tracking spreadsheet.

The DEA cannot effectively determine the time it takes to adjudicate each
registrant action through final decision.

      We found that the DEA has never analyzed the timeliness of the
adjudication of registrant actions, whether its adjudication of registrant
actions is timely and in compliance with its own policy, or where delays
occur in the adjudication process. In addition, we found that the DEA
maintains at least three different case tracking systems for registrant
actions, none of which tracks all of the major events for each registrant
action that results in a final decision. Specifically:

   	 Office of Administrative Law Judges’ Case Management System:
      The Case Management System tracks all registrant actions where a
      registrant requests a hearing and the case is assigned to an ALJ.
      According to the DEA, the Case Management System has limited
      functionality because it is not designed for analysis and does not
      contain information on deadlines. We found the Case Management
      System allowed the Office of Administrative Law Judges to create
      docket sheets to organize and maintain all of the documents filed
      in each case.48 Office of Administrative Law Judges employees told
      us that the system tracks whether continuances were granted in a
      case, but because the system does not maintain information about
      deadlines, it cannot report on the extent to which those
      continuances affected a case’s timeliness. Also, because the

        The Chief ALJ provided the OIG with a brief demonstration of the Case
       48

Management System capabilities, and screenshots, on May 22, 2013.


U.S. Department of Justice                                                        27
Office of the Inspector General
Evaluation and Inspections Division
       system lacks deadline information, Office of Administrative Law
       Judges staff uniformly told us that they do not rely on it for case
       tracking, and that they instead rely on weekly, hardcopy narrative
       case status updates for this purpose.

   	 Diversion Litigation Section’s Case Tracker: From approximately
      2006 to late 2010, the Diversion Litigation Section maintained a
      case management system called Case Tracker, which tracked all
      registrant actions initiated and whether they resulted in a final
      decision. We reviewed a screenshot of Case Tracker and found
      that it could track the dates registrant actions were initiated and
      the dates that certified case files were forwarded to the Office of the
      Administrator for a final decision. However, Case Tracker was
      replaced with a new system called ProLaw in March 2012.49 The
      Deputy Chief Counsel stated that determining the average time of
      each registrant action at each stage of the process could be done
      using ProLaw on a case-by-case basis, but not automatically.
      Diversion Litigation Section attorneys, however, noted that it is
      their responsibility to add information to ProLaw, and they did not
      know if all of the attorneys in the section recorded all of the dates
      associated with every case.

   	 Office of the Administrator Spreadsheet: The Administrator’s
      Attorney Advisor tracks all registrant actions that are provided to
      the Office of the Administrator for a final decision using a
      spreadsheet. We reviewed this spreadsheet and found that it
      tracks when registrant actions are forwarded to the Office of the
      Administrator and when the Administrator signed a final decision,
      including the dates of the Attorney Advisor’s review of each
      registrant action before it is signed by the Administrator. However,
      the Attorney Advisor’s spreadsheet does not track earlier stages in
      the process, and it does not contain data for events occurring prior
      to October 2010.

       Overall, the DEA’s use of multiple case tracking systems prevents
it from tracking each registrant action in its entirety. We found that
none of the current case management systems offers a convenient,
automated way to track all of the registrant actions as they progress
through the entire adjudication process.


        49 The Diversion Litigation Section provided a screenshot to the OIG of the

ProLaw database. We found that ProLaw reports active registrant actions by attorney
and tracks the dates of key case events, including when a charging document was
issued, when a recommended decision was issued, when a case was forwarded to the
Office of the Administrator, and when a final decision was issued.


U.S. Department of Justice                                                      28
Office of the Inspector General
Evaluation and Inspections Division
       In addition to the weaknesses in case management systems, we
also found that no individual or office within the DEA monitors the
progress of each case throughout the adjudication process. Both the
Chief ALJ and the Diversion Litigation Section Chief said that only the
Administrator has the broad authority to monitor the progress of
registrant actions throughout the whole adjudication process. The
Administrator told us that through a new Docket Master System being
implemented in the Office of Administrative Law Judges, she anticipates
being able to see how long registrant actions take from start to finish,
why registrant actions are delayed, and which registrant actions are
upcoming.50

Recent actions taken by the DEA may improve the timeliness of the
adjudication process.

      We found that the DEA has taken steps to facilitate the
adjudication of registrant actions, which the DEA believes will improve
the timeliness of the hearing process and the issuance of final decisions.
For example, the Office of Administrative Law Judges has moved into
new facilities with multiple courtrooms that are equipped with video
teleconferencing capabilities. Also, in addition to the Administrator, the
Deputy Administrator has begun reviewing cases and issuing final
decisions. Finally, the Office of Administrative Law Judges is developing
a new case management system that the DEA hopes to eventually make
accessible to all personnel involved in the adjudication process to
improve the DEA’s case tracking abilities.

New Office of Administrative Law Judges courtrooms may improve the
timeliness of the hearing process and provide cost savings.

      The regulations require that hearings take place at the date and
the time stated in the order to show cause or the immediate suspension
order. However, the Administrative Procedure Act states that
administrative hearings should be set with regard to the convenience of
the parties.51 Additionally, the subpoena authority for the Controlled
Substances Act is limited to witnesses who are within 500 miles of the
hearing location.52 Due to this geographical limitation on subpoenas
authorized under the Controlled Substances Act, as well as due process



       50   We discuss the new Docket Master System further below.

       51   5 U.S.C. § 554(b).

       52   21 U.S.C. § 876.


U.S. Department of Justice                                            29
Office of the Inspector General
Evaluation and Inspections Division
concerns, hearings have traditionally been conducted near the
registrant’s principal place of business.53

      In 2012, the Office of Administrative Law Judges began using video
teleconferencing for hearings. According to the DEA, courtrooms
equipped with video teleconferencing technology at the Office of
Administrative Law Judges will save time and costs associated with the
ALJs’ cross-country travel by allowing live testimony to be given from
other locations. Based on our review of DEA data, we found that the
DEA spent approximately $5 million on testimony and hearing
proceedings for the Office of Administrative Law Judges, the DEA’s Office
of Chief Counsel, and other DEA personnel from 2008 through 2012.
See Table 4 for costs associated with DEA testimony and hearing
proceedings from 2008 through 2012.

     Table 4: Costs Associated with DEA Testimony and Hearing 

                  Proceedings, 2008 through 2012

             Year     Headquarters        Field Offices         Total
             2008          $148,771             $254,201         $402,972
             2009          $276,361             $452,853         $729,214
             2010          $315,795             $607,528         $923,323
             2011          $442,171           $1,179,040       $1,621,211
             2012          $302,433             $992,307       $1,294,740
             Total       $1,485,531           $3,485,929       $4,971,460
           Notes: Headquarters includes the Office of Administrative Law
           Judges, Office of Chief Counsel, Operations Division, and
           Operational Support Division. Field office expenditures include
           domestic and foreign field offices.

           Costs include testimony, expert witnesses, trial preparation,
           transcription, and associated travel and lodging. DEA employee
           labor costs are not included.

           Source: DEA.

      The Administrator said that she prefers that hearings be held at
the Office of Administrative Law Judges because it cuts down on travel
and the time lost on other matters due to traveling. The Chief ALJ also
said that while the system is too new to determine any cost savings from

        53 The Chief ALJ told us that the Office of Administrative Law Judges conducts

hearings in remote locations where various federal and state agencies have been able
and willing to make their courtrooms available for this purpose. The DEA has
conducted remote hearings in United States Tax and Bankruptcy Courts, United States
District and Circuit Courts, various state and local courts, as well as in courtrooms
loaned by federal agencies such as the National Labor Relations Board and the
United States Immigration Court.


U.S. Department of Justice                                                        30
Office of the Inspector General
Evaluation and Inspections Division
video teleconferencing, he believes that video teleconferencing will reduce
travel expenses, allow the ALJs to complete their other work more
efficiently due to less time lost while on the road, and save time for the
Office of Administrative Law Judges’ Hearing Clerk, who otherwise must
devote extensive time to finding and reserving courtrooms in other
locations. He also said video teleconferencing will help registrants and
other witnesses by not requiring them to take time away from their jobs
to travel to a hearing.

       However, some DEA employees acknowledged issues that must be
addressed in implementing video teleconferencing for registrant actions.
Specifically, the Chief ALJ said video teleconferencing involves certain
challenges with managing a proceeding from a distance and that the
parameters set by the Administrative Procedure Act and Controlled
Substances Act raise due process concerns that an ALJ must consider
when scheduling hearings, including determining whether a hearing can
take place using video teleconferencing or whether the ALJ needs to
travel and conduct the hearing personally. Another ALJ stated that if
there are issues with the registrant’s credibility, the ALJ may prefer to
see the registrant in person.

The Deputy Administrator is now reviewing cases and issuing final
decisions.

       During the scope of our review, the current Administrator made all
final decisions about registrant actions, first in her role as Deputy
Administrator and later as Acting Administrator then permanent
Administrator. The Administrator said that the responsibility for issuing
final decisions was not immediately delegated to the current Deputy
Administrator because at the time of the Deputy Administrator’s
confirmation, the DEA did not have an Operations Chief and the current
Deputy Administrator therefore functioned as the Operations Chief when
he was first confirmed.54 The Administrator further said that when
functioning as the Operations Chief, the Deputy Administrator was also
the first-line supervisor for the Office of Diversion Control, which created
a potential conflict of interest in serving as the final decision-maker for
the adjudication of registrant actions generated by the Office of Diversion
Control. The appearance of this conflict delayed the Deputy
Administrator’s involvement in issuing final decisions until a new
Operations Chief was selected.

      In January 2013, the DEA selected a new Operations Chief, which
allowed the Deputy Administrator to function solely in that capacity and

       54   The Deputy Administrator was confirmed on March 29, 2012.


U.S. Department of Justice                                              31
Office of the Inspector General
Evaluation and Inspections Division
removed the conflict. The Administrator told us that she anticipates that
both she and the Deputy Administrator will share the responsibility for
signing final decisions in the future, with the Deputy Administrator
assuming responsibility for signing final decisions in orders to show
cause where the registrant has no state authority to handle controlled
substances. The Administrator said that she anticipates that the process
for issuing final decisions will be both “smoother” and more timely in the
future with both her and the Deputy Administrator signing final
decisions.55

A new case management system may improve and unify the tracking of
registrant actions.

       As discussed above, the Office of Administrative Law Judges, the
Diversion Litigation Section, and the Office of the Administrator each had
its own case management system to track the progress of registrant
actions throughout the adjudication process. The Office of
Administrative Law Judges is now working with the DEA Office of
Information Systems to test and implement a new database for case
tracking called the Docket Master System.56 The DEA stated that the
Docket Master System will allow increased monitoring of the case flow to
isolate and address any “choke points” to improve efficiency.

        The Chief ALJ stated that the Docket Master System was designed
specifically to address the weaknesses in the Case Management System
described above.57 He added that the Docket Master System will show
the length of continuances, not just whether they were granted, and that
it will facilitate overall oversight of the adjudication process. Another
ALJ told us that the Docket Master System was developed because the
old system, the Case Management System, was not responsive to the
       55 As of April 7, 2014, the Deputy Administrator had issued 11 final decisions,
including 7 in 2013 and 4 in 2014.

       56  In response to a working draft of this report, the DEA stated, “The problematic
Case Management System has been replaced with a new case tracking system called
the Docket Master System. With the Docket Master System, the Office of the
Administrative Law Judges now has the capacity to capture and run reports on case
milestones, and this allows the assessment of ‘choke points’ in the process to improve
efficiency.”

        57 On May 7, 2013, the OIG met with officials and staff from the Office of

Administrative Law Judges, the DEA’s Office of Chief Counsel, and the Office of the
Administrator. At this meeting, the Chief ALJ told the OIG that the Docket Master
System was being launched on the same day. In response to a working draft of this
report, the DEA stated that use of the Docket Master System began on schedule and
that after several months of testing and modifications, the Docket Master System would
supplant the Case Management System before March 31, 2014.


U.S. Department of Justice                                                           32
Office of the Inspector General
Evaluation and Inspections Division
Office of Administrative Law Judges’ needs and did not track what the
ALJs needed to track.

        The Administrator told us that through the Docket Master System
she anticipates being able to see how long cases take from start to finish,
why cases were delayed, and what cases are upcoming. She added that
initially only the Office of Administrative Law Judges will have access to
the new system due to the cost of expanding access to multiple DEA
offices, but that she hopes that the Office of the Administrator, as well as
the Diversion Litigation Section, will eventually have access to the Docket
Master System.




U.S. Department of Justice                                             33
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS 



       While the DEA’s process to adjudicate registrant actions and issue
final decisions is compliant with applicable laws and regulations, these
laws and regulations do not include timeliness standards for the entire
adjudication process. We found that the DEA does not have timeliness
standards that apply to the entire adjudication process or to all types of
registrant actions and that the time it takes the DEA to reach a final
adjudication is, on average, very lengthy. The average number of days
the DEA took to make a final decision ranged from a high of 730 days in
2009 to 366 days in 2012. Even in cases involving immediate
suspension orders, the one area where the DEA has put in place a
timeliness goal, the DEA does not come close to meeting its goal of
180 days to final adjudication. While the timeliness to adjudicate
immediate suspension orders has improved, in 2008 immediate
suspension orders took more than a year and a half on average to
adjudicate, and by 2012 they still took more than a year on average to
adjudicate. We found that the Office of the Administrator’s review alone
took an average of 231 days in 2008 and an average of 185 days in 2012.
While we found that the overall time it takes the DEA to adjudicate
registrant actions continues to be very lengthy, the timeliness of the
adjudication process nevertheless comports with the applicable laws and
regulations, which do not include specific timeliness standards.

      DEA officials and staff we interviewed identified adverse effects that
can result from delays in the adjudication of registrant actions. For
example, DEA staff told us that delays in the adjudication of registrant
actions diminish the DEA’s ability to protect the public from imminent
threats to health and safety arising from registrants’ misconduct. In
addition, delays can be detrimental to registrants’ careers, and
subsequently, their livelihood and ability to provide for their families.

       We identified several factors that contributed to the length of the
DEA’s adjudication proceedings. In some cases, delays resulted from
actions commonly associated with most administrative litigation
proceedings, such as negotiating settlements or variations between ALJs
in how they prefer to manage their caseloads. However, in other cases,
we found delays can result from a lack of guidance or from the process
the DEA uses to issue final decisions. For example, Diversion Litigation
Section attorneys are responsible for forwarding registrant actions to the
Office of the Administrator for a final decision if the registrant does not
request a hearing, but we found no guidance applicable to this
responsibility. As a result, each Diversion Litigation Section attorney we



U.S. Department of Justice                                             34
Office of the Inspector General
Evaluation and Inspections Division
interviewed had different self-imposed timeliness standards for
forwarding registrant actions to the Office of the Administrator.

       The DEA has taken steps that it believes will improve the
timeliness of the adjudication of registrant actions in the future.
However, we believe more can be done to improve the timeliness of the
adjudication of registrant actions and ensure adverse effects of delays are
mitigated, including establishing oversight of the adjudication of
registrant actions through the Office of the Administrator and expanding
the use of the DEA’s new Docket Master System.

Recommendations

       We make the following three recommendations to improve the
DEA’s ability to effectively and efficiently adjudicate all registrant actions
in a timely manner and mitigate the potential adverse effects of delays on
the DEA, registrants, and the public. We recommend that the DEA:

   1. Establish timeliness guidelines for adjudicating all orders to show
      cause.

   2. Establish policy and procedures, including timeliness guidelines,
      for forwarding a case to the Office of the Administrator for final
      decision when a hearing is waived or terminated.

   3. Institute a formal process for tracking the timeliness of each
      adjudication from the initial registration action to the DEA’s final
      decision and for periodically assessing timeliness.




U.S. Department of Justice                                                35
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX I: SCOPE AND METHODOLOGY OF THE OIG REVIEW 



       We examined the DEA’s process for issuing final decisions on
registrant actions from the issuance of an order to show cause or
immediate suspension order to the issuance of a final decision from
calendar years 2008 through 2012. We examined federal laws and
regulations, as well as the DEA’s policies and procedures for the
adjudication of registrant actions and issuance of final decisions. We
also analyzed the timeliness of the adjudication of registrant actions,
including the Office of the Administrative Law Judges’ timeliness in
issuing recommended decisions, and the timeliness of the Administrator
in issuing final decisions. In addition, for registrant actions that did not
include an ALJ’s recommended decision, we analyzed the timeliness of
the Diversion Litigation Section in forwarding registrant actions to the
Office of the Administrator for a final decision. Lastly, we assessed the
impact of any delays by the DEA in the adjudication process on
registrants and the public.

      Our fieldwork, conducted from May 2013 through August 2013,
included interviews, document analysis, and data collection and
analysis. The following sections provide additional information on the
methodology of our review.

Interviews

       We interviewed 21 DEA officials and staff with roles in the
adjudication of registrant actions. In the Office of the Administrative Law
Judges, we interviewed three ALJs, including the Chief Administrative
Law Judge. We also interviewed one former ALJ who adjudicated DEA
registrant actions during the scope of our review. In addition, we
interviewed the Office of the Administrative Law Judges Hearing Office
Director, Hearing Clerk, two secretaries, and three law clerks. In the
DEA’s Office of Chief Counsel, we interviewed the Deputy Chief Counsel,
the Associate Chief Counsel (Section Chief) for the Diversion Litigation
Section (twice), and three Diversion Litigation Section trial attorneys. We
also interviewed two former Diversion Litigation Section Chiefs who
supervised Diversion Litigation Section trial attorneys during the scope of
our review. In the Office of the Administrator, we interviewed the
Administrator (twice) and the Administrator’s Attorney Advisor.

       In addition, at the outset of our fieldwork, we met collectively with
DEA representatives from each office involved in the adjudication of
registrant actions to discuss the role of each office and its staff in the
process, as well as to discuss applicable policies or guidance and data

U.S. Department of Justice                                               36
Office of the Inspector General
Evaluation and Inspections Division
maintained on all registrant actions. DEA representatives at this
meeting included an Executive Assistant from the Office of the
Administrator; the Deputy Chief Counsel and Associate Chief Counsel/
Diversion Litigation Section Chief; the Office of the Administrative Law
Judges’ Chief ALJ and Hearing Office Director; an Executive Assistant
from the Office of Diversion Control; and seven representatives from the
Office of Inspections.

Document Analysis

       We reviewed the laws, regulations, and legislative history governing
the adjudication of registrant actions, including the Administrative
Procedure Act of 1946 and the Controlled Substances Act of 1970 and its
associated regulations. We also reviewed DEA policies on the processing
and adjudication of registrant actions and training materials discussing
the adjudication process that were prepared for new employees in the
Office of Administrative Law Judges and the Diversion Litigation Section.

Data Analysis

        Our analysis included the collection of dates for key events in the
adjudication process for each registrant action that resulted in a final
decision. We analyzed the timeliness of the adjudication process as a
whole, as well as the timeliness between key events (stages of the
adjudication process) and the timeliness of each office that had a role in
the adjudication of registrant actions. Examples of key events include
the date an order to show cause or immediate suspension order was
issued, the date a hearing began, the date an ALJ issued a recommended
decision, and the date the Administrator issued a final decision. We also
used published final decisions to collect data on the type of registrant
(retail or wholesale), the type of order issued (order to show cause or
immediate suspension order), the action recommended by an ALJ, and
the action taken by the Administrator. We did not assess the
substantive basis for final decisions.

      We conducted a review of all orders to show cause and immediate
suspension orders with and without a hearing that resulted in a final
decision by the Administrator from 2008 through 2012. We did not
address the role of the DEA’s Office of Diversion Control prior to issuance
of one of these orders or in serving orders on registrants. Our analysis
used the date of issuance of an order to show cause or immediate
suspension order as the beginning point in calculating timeliness rather
than the date orders were served because the 2006 memorandum
established that timeliness standards for immediate suspension orders
began at the issuance of the order, not at service of the order. Because

U.S. Department of Justice                                             37
Office of the Inspector General
Evaluation and Inspections Division
there are no timeliness standards for orders to show cause, we used the
same starting point to ensure our analysis of both types of orders was
consistent and comparable.

       We obtained all published final decisions from the DEA’s Office of
Diversion Control website.58 However, the published decisions did not
consistently include all of the data we sought to analyze, including the
date a charging document was issued, the date a hearing was held, and
the date a case was forwarded to the Office of the Administrator. To
obtain missing data, we requested and received data from multiple DEA
sources. First, we obtained copies of docket sheets for all of the
registrant actions within the scope of review, which included dates for
when charging documents were issued and served, dates of pre-hearing
and post-hearing proceedings, and dates the Office of the Administrative
Law Judges forwarded registrant actions to the Office of the
Administrator.59 Second, the Diversion Litigation Section provided data
for registrant actions without an ALJ’s recommended decision, which
included the dates registrant actions were forwarded to the Office of the
Administrator for final decision. Finally, we received data from a
spreadsheet maintained by the Administrator’s Attorney Advisor that
included the date the Advisor completed his review of all registrant
actions forwarded to the Office of the Administrator, the date a registrant
action was forwarded to the Administrator for final decision and
signature, and the date the final decision was issued.60




       58All notices of registrant actions are published in the Federal Register and are
made available to the public online on the Office of Diversion Control’s website at
http://www.deadiversion.usdoj.gov/fed_regs/index.html. The notices that we reviewed
were under the “Registrant Actions” heading for the years 2008 through 2012.

        59 The docket sheets the Office of the Administrative Law Judges provided did

not include any dates for cases in which the registrant did not request a hearing
because those cases were not tracked in the Case Management System. For cases that
were tracked in the Case Management System, the docket sheets did not consistently
include dates for when a charging document was served on the registrant.

        60 The Attorney Advisor’s spreadsheet included data only since October 2010.

Because the spreadsheet did not cover the entire scope of our review, we were not able
to use it to identify all of the information we required for our analysis.


U.S. Department of Justice                                                         38
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX II: THE DEA’S RESPONSE TO THE DRAFT REPORT 





                                                               U. S. Department of Justice
                                                               Drug Enforcement Administration




          www.dea.gov                                          Washington, D.C. 20537

                                                           / t '"
                                                                     APR 2 5 2014               ,
                                                                                          , I
                                                                                          ~.J

          MEMORANDUM

          TO:            Nina S. Pelletier
                         Assistant Inspector General
                         Evaluation and Inspections
                         OffiC~Of  the Ins ector General
                       ~~~~~k_
          FROM:          Michael    .m;;;,fi7' /
                         Acting Deputy Chief Inspector
                         Office of Inspections

          SUBJECT:       DEA's Response to the ~IG 's Draft Report: The Drug EnJorcement
                         Administration's Adjudication of Registrant Actions

              The Drug Enforcement Administration (DEA) has reviewed the Department of Justice
          (DOJ). Office of the Inspector General's (DIG) Draft Audit Report, entitled: The Drug
          Enforcement Administration's Adjudication of Registrant Actions. DEA appreciates the efforts
          of the 01G Audit team to identify areas in which the Agency can improve the efficiency of the
          manner in which it adjudicates proceedings brought under sections 303 and 304 of the
          Controlled Substances Act.

             The OIG report documents that the adjudicative process followed by the DEA was in
          compliance with the requirements of21 U.S.c. §824 and DEA's regulations. Additionally, the
          OIG noted that there are no federal law or DEA regulations that establish timeliness standards.
          OIG also noted that DEA has developed more complicated cases against larger distributors
          which are more likely to result in multiple actions that are then consolidated into a single case,
          which can result in delays in issuing final decisions.

              DEA, however; respectfully disagrees with the OIG Audit Team's finding "'that the time it
          took the DEA to reach a final adjudication of registrant actions was very lengthy" and believes
          that the Audit Team's methodology gives little or no weight to important factors which impact
          the timeliness of the adjudicatory process.

          Clarifications on Report Findings

                 I.   The OIG's Finding That The Time It Takes DEA To Reach A Final
                      Adjudication Was "Very Lengthy"




U.S. Department of Justice                                                                                     39
Office of the Inspector General
Evaluation and Inspections Division
          Nina S. Pelletier, Assistant Inspector General                                             Page 2

                 The OIG report found that the average number of days for all registrant actions is 366
                 days. The OIG report concludes that this timeframe is "very lengthy." The report does
                 not compare DEA's timeframes with other components or federal agencies, which
                 conduct adversarial proceedings (or courts) to determine how the timeliness of DE A's
                 process compares. A true comparison would be necessary to determine if DEA 's
                 timelines are indeed "very lengthy."

                 The OIG Report also notes that the Agency has "consistently failed to meet its own
                 timeliness standards in adjudicating immediate suspension orders." The OIG Report
                 further finds that the Agency has engaged in "excessive delay." The Report, however,
                 omits material information regarding some of the causes that contribute to delay. More
                 specifically, the Report does not consider that: I) the state of the record compiled by the
                 ALJ may be such as to greatly increase the time required for reviewing the matter; and 2)
                 a recommended decision may contain both factual and legal inaccuracies which must be
                 addressed and amended by the Agency in its final decision.

                 II. The OIG's Findings Regarding Immediate Suspensions Cases Where
                     Registrants Also Lost Their State Authority

                 The OIG Report notes that "[b)etween 2008 and 2012, the Administrator made a final
                 decision in 13 cases with immediate suspension orders that involved an ALl ' s summary
                 disposition in favor of revocation." The OIG Report further states "the Office of the
                 Administrator took an average of 203 days to issue a final decision after receiving the
                 case from the Office of Administrative Law Judges." The OIG Report fails to note that
                 because these individuals did not possess state authority, they could not prescribe
                 controlled substances regardless of whether the federal registration had been revoked.
                 Moreover, while the Agency exceeded its goal for issuing a final decision in these
                 matters, because these individuals did not meet a statutory prerequisite for obtaining a
                 new registration under Federal law, the delay had no impact on them.

                 III. The OIG's Finding That Adjudications Have Become Less Timely In Those
                      Matters Which Did Not Involve An ALJ's Recommended Decision

                 The OIG Report notes that between 2008 to 2012, the time it took the Office of the
                 Administrator to issue a final decision increased from an average of 98 to 167 days. The
                 Report fails to acknowledge the reason for the increase, i. e., the large number of
                 contested Immediate Suspension proceedings (16) which were brought in the 201 1 -
                 2012 time period. Because these proceedings involved contested Immediate
                 Suspensions, they were given priority review over non-contested matters, with the result
                 that non-contested matters took longer to review.

                 IV. The OIG Report's Discussion of How Delays In the Adjudication Process Can
                     Adversely Affect the Public and Registrants

                 The OIG Report is correct in asserting that delays in the issuance ofa final agency
                 decision can potentially affect public health and safety in that a doctor who is issued an
                 Order to Show Cause, but not an Immediate Suspension Order, can continue to divert
                 controlled substances until a revocation order becomes final. However, in the event that




U.S. Department of Justice                                                                                     40
Office of the Inspector General
Evaluation and Inspections Division
         Nina S. Pelletier, Assistant inspector General                                                Page 3

                a doctor (or phannacy) continues to divert drugs during the pendency ofa proceeding,
                the Administrator can, and has, issued an Immediate Suspension Order.

                The OIG Report further suggests that delays in resolving immediate suspension cases
                impose unfair hardships on registrants. However; the OIG Report fails to inform the
                reader that a registrant can seek injunctive relief from a federal district court in the event
                the Agency's issuance ofan Immediate Suspension Order violates either the Due Process
                Clause or the requirements of21 u.s.c. § 824(d).

                The OIG Report also does not identify a single case in which a physician or pharmacy
                subject to an Immediate Suspension Order successfully refuted the allegations raised by
                the Government, let alone prevailed on judicial review of the Agency's final decision.
                Indeed, those registrants who have been subject to an Immediate. Suspension Order are
                invariably egregious violators of the Controlled Substances Act.


         DEA Response to the Recommendations

                The OIG makes three recommendations for DEA action:

                Recomme"daliolll: Establish timeliness guidelines for adjudicating all orders to
                show cause.

                DEA concurs with this recommendation as follows. DEA will promulgate timeliness
                guidelines for adjudicating orders to show cause consistent with the APA's requirement
                that agencies conclude matters presented to them "within a reasonable time." 5 U.S.C. §
                555(b). Consistent with the APA and in recognition of (i) the highly variable nature of
                the complexity of the cases DEA initiates; and (ii) the constantly changing nature of
                diversion itself, DEA anticipates that its guidelines will account for the myriad of factors
                potentially relevant to an assessment of whether the timeliness of a given adjudication is
                reasonable.

                Recommendation 2: Establish policy and procedures, including timeliness guidelines
                for forwarding a case to the Office ofthe     Admini~trato r   for final decision when a
                hearing is waived or terminated.

                DEA concurs with this recommendation as follows. A DEA working group has been
                convened to revise DEA's hearing regulations. Although the precise scope and nature of
                the revisions remains a work in progress, each of the component parts involved in
                drafting the regulations agrees that DEA should implement a default rule. Such a rule, if
                implemented, would significantly truncate the work that DEA investigative personnel,
                CCD attorneys, and the Office of the Administrator must currently perform in connection
                with requests for Final Agency Action. In the ovetwhelming majority of Final Agency
                Actions, the registrant has failed to avail himselflherself of the administrative
                proceedings that DEA has established to ensure due process. In such instances, DEA
                regulations currently require DEA to present evidence sufficient to sustain DEA's
                burden, and the Office of the Adminjstrator must evaluate such e-vidence and render a




U.S. Department of Justice                                                                                       41
Office of the Inspector General
Evaluation and Inspections Division
         Nina S. Pelletier, Assistant Inspector General                                               Page 4

                written decision. As the OIG report correctly recognizes, the nature and extent of the
                work that is required varies, but can be significant.

                The contemplated default rule would eliminate the vast majority of the work that OEA
                must perform in proceedings where registrants have elected not to proceed, as the
                allegations in the OTSCnSO would be deemed admitted. Accordingly, the revised
                hearing regulations in general, and the default rule in particular. will likely reduce the
                time it takes DEA to resolve uncontested proceedings, and, in the process, effectively
                accomplish the purpose underlying this recommendation.

                Recommendation 3: Institute a formal process for tracking the timeliness of each
                adjudication from the initial registration action to the DEA's final decision and for
                periodically assessing timeliness.

                DEA concurs with this recommendation as follows. Since November 2010, the
                Administrator (and later, the Deputy Administrator) has consistently received quarterly
                reports with current statistics tracking the timeliness and progress of cases from LJ, and
                discussed those numbers in significant detail. The process for the review of timeliness of
                ALI cases is already in existence, and DEA leadership has been actively engaged in
                reviewing the numbers and assessing trends. Implementation of the Docket Master
                System (OMS) enables OEA leadership to have numbers and trends in real-time reports.
                Screen shots of the completed OMS were previously provided to OIG.

                Based on this information, DEA requests closure of this recommendation.

             Documentation detailing DEA's efforts to implement concurred recommendations noted in
         this report will be provided to the DIG on a quarterly basis, until the corrective actions have
         been completed. If you have any questions or concerns regarding DEA' s response to the DIG
         Audit Report recommendations, please contact the Audit Liaison Team at (202) 307-8200.




U.S. Department of Justice                                                                                     42
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX III: OIG ANALYSIS OF THE DEA’S RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Drug Enforcement Administration for its comment. The DEA
provided general comments on the report findings and its response to the
report’s recommendations. The DEA’s response is included in
Appendix II of this report. The OIG’s analysis of the DEA’s response and
the actions necessary to close the remaining recommendations are
discussed below.

GENERAL COMMENTS ON REPORT FINDINGS

I. The OIG’s Finding That the Time It Took the DEA to Reach a
Final Adjudication Was “Very Lengthy”

       DEA Comment: The DEA stated that the OIG report does not
compare the DEA’s timeframes with other components or federal
agencies that conduct adversarial proceedings (or courts) to determine
how the timeliness of the DEA’s process compares and that a true
comparison would be necessary to determine if the DEA’s timelines are
“very lengthy.” The DEA also stated that the OIG report omits material
information regarding some of the causes that contribute to delay,
including: (1) the state of the record compiled by the ALJ, which may be
such as to greatly increase the time required for reviewing the matter;
and (2) a recommended decision may contain both factual and legal
inaccuracies that must be addressed and amended by the DEA in its
final decision.

       OIG Analysis: Based on our analysis of the DEA’s data compared
with parameters established in the DEA’s 2006 memorandum, we believe
the characterization of the time it takes to reach a final decision as “very
lengthy” is accurate. As explained on pages 37 and 38, our analysis of
the timeliness of the adjudication process was based on the parameters
established in the DEA’s 2006 memorandum on the hearing process for
immediate suspension orders, which establishes a goal of issuing final
decisions within 180 days of a suspension. Because the DEA has not
established timeliness standards for orders to show cause, we used the
same parameters for both types of orders to ensure our analysis was
both consistent and comparable. Based on our analysis of DEA data, we
found the average time to adjudicate immediate suspension orders
ranged from 647 days in 2008 to 459 days in 2012, substantially above
the 180-day goal set in a 2006 DEA memorandum. We also found that it
took the DEA on average 616 days in 2008 to 371 days in 2012 to issue
a final decision for orders to show cause.

U.S. Department of Justice                                              43
Office of the Inspector General
Evaluation and Inspections Division
       Also, the OIG disagrees with the DEA’s statement that the report
omits material information regarding some of the causes that contribute
to delays in the timeliness of the adjudication process. For example, on
page 25, we explain that when cases are received in the Office of the
Administrator they are reviewed first by an Attorney Advisor who reads
the entire file and drafts a proposed final decision either agreeing with
the ALJ’s recommended decision or modifying it. We also state that a
number of factors, such as the physical length of a case file, can affect
how long it takes the Office of the Administrator to review a registrant
action and issue a final decision. In addition, pages 20 through 29
explain that enforcement operations and administrative procedures can
also affect the timeliness of issuing final decisions.

II. The OIG’s Finding Regarding Immediate Suspension Cases Where
Registrants Also Lost Their State Authority

       DEA Comment: The DEA stated that the OIG report notes that
“[b]etween 2008 and 2012, the Administrator made a final decision in
13 cases with immediate suspension orders that involved an ALJ’s
summary disposition in favor of revocation,” and “the Office of the
Administrator took an average of 203 days to issue a final decision after
receiving the case from the Office of Administrative Law Judges.” The
DEA further stated that the OIG report fails to note that because these
individuals did not possess state authority, they could not prescribe
controlled substances regardless of whether the federal registration had
been revoked. The DEA therefore maintains that, while the DEA
exceeded its goal for issuing a final decision in these matters, because
these individuals did not meet a statutory prerequisite for obtaining a
new registration under federal law, the delay had no impact on them.

       OIG Analysis: The OIG highlighted these 13 cases because DEA
officials and staff told us that when a registrant lacks state authority
DEA precedent compels revocation as the only possible result of the
DEA’s adjudication. Even if there is no additional impact on the
registrants because of restrictions imposed at the state level, we found
the time taken for the DEA’s adjudication of these cases was excessive
because the cases do not require the DEA to perform an extensive legal
review before issuing a final decision.

III. The OIG’s Finding That Adjudications Have Become Less
Timely in Those Matters That Did Not Involve an ALJ’s
Recommended Decision

     DEA Comment: The DEA stated that the OIG report notes that
between 2008 to 2012, the time it took the Office of the Administrator

U.S. Department of Justice                                            44
Office of the Inspector General
Evaluation and Inspections Division
to issue a final decision increased from an average of 98 to 167 days,
but the report fails to acknowledge the reason for the increase, i.e., the
large number of contested immediate suspension proceedings which
were brought in the 2011 to 2012 time period. The DEA stated that
because these proceedings involved contested immediate suspensions,
they were given priority review over non-contested matters, with the
result that non-contested matters took longer to review.

      OIG Analysis: The OIG disagrees with the DEA’s statement that
the report fails to acknowledge the large number of contested
immediate suspension proceedings brought in 2011 and 2012. On
page 21, the report states that the number of immediate suspension
orders that were initiated increased 71 percent throughout our scope,
from 24 in 2008 to 41 in 2012, with a high of 65 in 2011.
Furthermore, on page 22, the report explicitly states that immediate
suspension orders are expedited over other cases.

IV. The OIG Report’s Discussion of How Delays in the Adjudication
Process Can Adversely Affect the Public and Registrants

      DEA Comment: The DEA stated that the OIG report fails to
inform the reader that a registrant can seek injunctive relief from a
federal district court if the registrant believes the DEA’s issuance of an
immediate suspension order violates either the Due Process Clause or
the requirements of 21 U.S.C. § 824(d). The DEA further stated that
the OIG report does not identify a single case in which a physician or
pharmacy subject to an immediate suspension order successfully
refuted the allegations raised by the government, let alone prevailed on
judicial review of the DEA’s final decision. The DEA also stated that
those registrants who have been subject to an immediate suspension
order are invariably egregious violators of the Controlled Substances
Act.

      OIG Analysis: As explained on pages 37 and 38, the OIG
evaluated the DEA’s process to adjudicate registrant actions from
issuance of a registrant action through a final agency decision. The
matters identified in the DEA’s response – including the substantive
basis for the DEA’s issuance of an immediate suspension order, the
substantive basis for final agency decisions, and judicial review of such
decisions – were beyond the scope of this review, and the OIG
consequently cannot express any opinion about them.




U.S. Department of Justice                                              45
Office of the Inspector General
Evaluation and Inspections Division
OIG’S ANALYSIS OF THE DEA’S RESPONSE TO RECOMMENDATIONS

Recommendation 1: Establish timeliness guidelines for adjudicating
all orders to show cause.

       Status: Resolved.

      Summary of DEA Response: The DEA concurred with this
recommendation and stated that for orders to show cause it will
promulgate adjudication timeliness guidelines that are consistent with
the Administrative Procedures Act and that recognize factors relevant to
an assessment of timeliness.

      OIG Analysis: The action the DEA plans is responsive to our
recommendation. Please provide documentation of the promulgation of
timeliness guidelines for adjudicating orders to show cause, or the status
of your progress, by August 29, 2014.

Recommendation 2: Establish policy and procedures, including
timeliness guidelines for forwarding a case to the Office of the
Administrator for final decision when a hearing is waived or
terminated.

       Status: Resolved.

       Summary of DEA Response: The DEA concurred with this
recommendation and stated that a working group has been convened to
revise the DEA’s hearing regulations. The DEA stated that the working
group agrees that the DEA should implement a default rule that, if
implemented, would significantly truncate the work that DEA personnel
must currently perform in connection with requests for a final agency
action. The DEA stated that in the majority of registrant actions
adjudicated solely by the Administrator, the registrant fails to avail
themselves of the administrative proceedings. In such circumstances,
DEA regulations currently require the DEA to present evidence sufficient
to sustain the DEA’s burden and the Office of the Administrator to
evaluate such evidence and render a written decision. The DEA stated
that the contemplated default rule would eliminate the vast majority of
the work that the DEA must perform in proceedings where registrants
have elected not to proceed, as the allegations in the registrant action
would be deemed admitted. Accordingly, the DEA stated that the revised
hearing regulations in general, and the default rule in particular, will
likely reduce the time it takes the DEA to resolve uncontested
proceedings.


U.S. Department of Justice                                            46
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis: The actions the DEA plans are partially responsive
to our recommendation.

      While instituting a procedural default rule as described in the
DEA’s response may improve the speed with which these cases are
forwarded to the Office of the Administrator, such a rule would not
necessarily ensure that DEA staff has been provided with a clear
timeliness expectation for forwarding these cases and measured against
that standard. We are also concerned that the default rule, as described,
may take a significant amount of time to implement, and we therefore
encourage the DEA to consider issuing timeliness guidelines prior to the
implementation of the default rule. If the default rule, when
implemented, improves the efficiency with which these cases are
forwarded to the Office of the Administrator, the DEA could adjust its
timeliness guidelines as appropriate.

      Additionally, we note that under 21 U.S.C. § 877, findings of fact
by the Attorney General, or, in this case, the DEA Administrator, are
conclusive for purposes of a registrant’s appeal of a final determination,
but only if supported by “substantial evidence.” Before implementing the
default rule described in its response, the DEA should evaluate whether
a determination based on deemed admissions would satisfy this
“substantial evidence” requirement on appeal.

      Please provide a copy of the draft hearing regulations, default rule,
and other guidance relating to this recommendation, or the status of
your progress, by August 29, 2014.

Recommendation 3: Institute a formal process for tracking the
timeliness of each adjudication from the initial registration action
to the DEA’s final decision and for periodically assessing timeliness.

       Status: Closed.

      Summary of DEA Response: The DEA concurred with this
recommendation and provided the OIG with screen shots of the recently
implemented Docket Master System to confirm that the DEA has
implemented a formal process for tracking the timeliness of each
adjudication from the initial registration action to the DEA’s final
decision, and for periodically assessing timeliness.

      OIG Analysis: Based on the actions the DEA has already taken
and the OIG’s subsequent confirmation of those actions, this
recommendation has been closed.


U.S. Department of Justice                                             47
Office of the Inspector General
Evaluation and Inspections Division
